W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-7618

Krystal Alexander-Jasmin

Santa Monica Police Department, et al.

(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
California Department of Justice, Office of the Attorney General

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Benjamin Glickman

Date:

4/12/21

Digitally signed by Benjamin Glickman
Date: 2021.04.12 08:24:55 -07'00'

(Type or print) Name Benjamin M. Glickman
Mr.

Ms.

Mrs.

Miss

Firm

California Department of Justice, Office of the Attorney General

Address

P.O. Box 944255

City & State

Sacramento, CA

Phone

916.210.6054

Zip 94244-2550
Email

benjamin.glickman@doj.ca.gov

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Krystal Lynn Alexander-Jasmin, Petitioner
300 W. Ocean Blvd., Apt. 6615
Long Beach, CA 90802
realklaj@gmail.com

